In The
Supreme Court of The United States
VANCE EDWARD VOLIOUS, JR.,
a/k/a Dank, a/k/a Black

*

*
*
*
*

vs.
UNITED STATES

No.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The appellant, VANCE EDWARD VOLIOUS, JR., a/k/a Dank, a/k/a Black, by
and through his appointed counsel, Aimee Zmroczek, respectfully requests leave of
this Court to proceed herein in forma pauperis in accordance with the provisions of
28 U.S.C. §1915 and Rule 39 of this Court.
Please note the undersigned counsel did represent the appellant in the
proceeding before the United States Court of Appeals for the Fourth Circuit. The
undersigned’s representation was by way of appointment pursuant to the Criminal
Justice Act, 18 U.S.C. §3006A.

1

The petition for a writ of certiorari to the Supreme Court of the United States
accompanies this motion.

Originally known as the Criminal Justice Act of 1964; now titled as Criminal
Justice Act Revision of 1986.

1

1

Date: May 27, 2021

Respectfully submitted,
/s/ Aimee Zmroczek
AIMEE ZMROCZEK
A.J.Z. LAW FIRM, LLC
2003 Lincoln Street
Columbia, SC 29201
(803) 403-7750
aimee@ajzlawfirm.com

Attorney For Petitioner Volious

2

